-“1

APPENDIX A

J

U.S. Department of Labor

Office of Administrative Law Judges
800 K Street, NW
Washington, DC 20001-8002

a

VT

(202) 693-7350
(202) 693-7365 (FAX)

Issue Date: 28 May 2021
OALJ Case No.:
OSHACase No.:

2021 -SOX-00020
2-4173-16-176

In the Matter of:
THOMAS RIMINI,
Complainant,
v.

J.P. MORGAN CHASE & COMPANY,
Respondent.
NOTICE OF DOCKETING
This matter arises under the employee protection provisions of the Sarbanes-Oxley Act of
2002 (“SOX”), as amended, 18 U.S.C. § 1514A, and the implementing regulations at 29 C.F.R.
Part 1980. By email dated May 14, 2021, Complainant is appealing an October 14, 20161
determination issued by the Occupational Safety and Health Administration dismissing a July 9,
2016 complaint alleging Respondent retaliated against him in violation of SOX by blacklisting
him.2 The Office of Administrative Law Judges (“OALJ”) docketed the above referenced case
on May 14, 2021. It is not yet assigned to a presiding administrative law judge (“ALJ”). A
Notice of Hearing and/or Prehearing Order may be sent to the parties once the matter is assigned
to an ALJ. You may track the progress of the case using the Case Status Lookup feature on the
OALJ website at https://www.dol.gov/agencies/oali.

1 Mr. Rimini contends that he did not receive the determination letter. It appears that, on or about October 17, 2016,
OSH A sent the determination letter to Complainant by UPS to an address in New York City, not the Winchester,
Massachusetts address reflected on the determination letter.
2 Mr. Rimini has four previous complaints before OALJ, all involving the same Respondent: (i) a complaint filed in
July 2015 and docketed as 2015-SOX-00034 was dismissed by the ALJ on January 18, 2017 before being removed to
federal district court; (ii) a complaint filed on December 13, 2017 and docketed as 2018-SOX-00010 was dismissed
by the ALJ on April 3, 2018; (iii) a third complaint filed on April 13, 2018 and docketed as 2018-SOX-00023 was
dismissed by the ALJ on August 29, 2018; and (iv) a complaint filed on April 2, 2019 alleging Respondent made false
statements in filings to the Administrative Review Board (ARB). This complaint was docketed as 2019-SOX-00033
and transmitted to the ARB for consolidation with an appeal in 2018-SOX-00023 as it did not allege any new facts
outside of the administrative appeal. The ARB consolidated cases 2018-SOX-00010, 2018-SOX-00023, and 2019SOX-00033 and dismissed the matters by order dated August 5, 2019.

ft

Parties are encouraged to efile with OALJ using either OALJ’s e-mail e-filing system
described at www.dol.gov/agencies/oali/filing by email or DOL’s eFile/eServe System (“EFS”)
at https://www.dol.gov/agencies/oali/EFS.
In addition to any of the rules set forth in the statute or implementing regulations governing
this case type, the OALJ Rules of Practice and Procedure apply and can be found on the OALJ
website at https://www.dol.gov/agencies/oalj/topics/libraries/LIBRULES. Unless an exemption
applies, the parties are required to make initial disclosures within 21 days of the date of this notice
without awaiting a discovery request or discovery order. See 29 C.F.R. § 18.50(c)(1). The initial
disclosures need not be filed with this office.
Digitally signed by STEPHEN R.
HENLEY
DN: CN=STEPHEN R. HENLEY,
OU=ADMINISTRATIVE LAW JUDGE,
0=US DOL Office of Administrative Law
Judges. L=Washington, S=DC, C=US
Location: Washington DC

SO ORDERED.

STEPHEN R. HENLEY
Chief Administrative Law Judge

-2-

If

SERVICE SHEET
Case Name: Rimini_v_JP_MORGAN_CHASE_and__

Case Number: 2021SOX00020
Document Title: NOTICE OF DOCKETING
I hereby certify that a copy of the above-referenced document was sent to the following this 28th
day of May, 2021:
Digitally signed by Mintha Dowtin
DN: CN=Mintha Dowtin. OU=Paralegal
Specialist, 0=US DOL Office o
Administrative Law Judges, L=Wa$hington,
$=DC, C=US
Location: Washington DC

Mintha Dowtin
Paralegal Specialist
Thomas Rimini
Thomas_rimini@msn.com
WINCHESTER MA 01890
{Electronic - Regular Email}
Steven J. Pearlman, Esq
spearlman@proskauer.com
Proskauer Rose, LLP
70 West Madison Street
Suite 3800
CHICAGO IL 60602
{Electronic - Regular Email}

APPENDIX B

iy

Case 20-4003, Documenf98, 05/13/2021, 3100237, Pagel of 2

Dep’t of Labor
--------2018-392018-70
2019-73

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 13th day of May, two thousand twenty-one.
Present:
Guido Calabresi,
Rosemary S. Pooler,
Michael H. Park,
Circuit Judges.
Thomas Rimini,
Petitioner,
20-4003

v.
United States Department of Labor,
Respondent.

Respondent moves to dismiss the petition for review for lack of jurisdiction and because it is
duplicative of a case in the First Circuit. Petitioner moves for in forma pauperis (“IFP”) status,
assignment of pro bono counsel, to seal documents, to expedite, for mediation, and for declaratory
and default judgments. The First Circuit has entered judgment dismissing a petition for review
challenging the same order that Petitioner challenges in this Court. See Rimini v. U.S. Dep’t of
Labor, No. 19-1970 (1st Cir. Feb. 22,2021). “[R]es judicata bars re-litigation if‘(1) the previous
action involved an adjudication on the merits; (2) the previous action involved the plaintiffs or
those in privity with them; [and] (3) the claims asserted in the subsequent action were, or could
have been, raised in the prior action.’” Soules v. Conn., Dep’t ofEmergency Servs. & Pub. Prot.,
882 F.3d 52, 55 (2d Cir. 2018) (quoting Monahan v. N.Y.C. Dep’t of Corr., 214 F.3d 275, 285 (2d
Cir. 2000)). Since these requirements have been met, this Court has determined that res judicata
bars the petition for review in this Court. See Soules, 882 F.3d at 54.
Upon due consideration, it is hereby ORDERED that the Respondent’s motion to dismiss is
DENIED, the Petitioner’s IFP motion is DENIED, and the petition for review is DISMISSED

Case 20-4003, Document.98, 05/13/2021, 3100237, Page2 of 2

because it “lacks an arguable basis either in law or in fact.” Neitzke v. Williams, 490 U.S. 319,
525 (1989); see ulsu 28 U.S.C. § 1915(e). It is furthcr-QRDERED-that the Petitioner’s-remaining
motions are DENIED as moot.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

2

»

APPENDIX C

ft

Case 20-4003, Document 107, 06/01/2021,3111657, Pagel of 1

UNITED STATES COURT OF APPEALS
--------------------- FOR THE
SECOND CIRCUIT

At a Stated Term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on
the 1st day of June, two thousand twenty-one,
Present:
Guido Calabresi,
Rosemary S. Pooler,
Michael H. Park,
Circuit Judges.

Thomas Rimini,

ORDER
Docket No. 20-4003

Petitioner,
v.
United States Department of Labor,
Respondent.

Petitioner filed a motion for reconsideration and the panel that determined the motion has
considered the request.
IT IS HEREBY ORDERED, that the motion is denied.

For The Court:
Catherine O'Hagan Wolfe,
Clerk of Court

ft

